OIG Investigative Reports Press Release Boston MA., 10/16/2013 - Former Financial Aid Advisor Sentenced for Stealing Over $62,000 in Student Financial Aid
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
DISTRICT OF MASSACHUSETTS
NEWS
Former Financial Aid Advisor Sentenced for Stealing Over $62,000 in Student Financial Aid
OCTOBER 16, 2013
BOSTON – A former financial aid advisor at a Brockton training school was sentenced today for stealing $84,298 in student financial aid.
Ayana Bean, 39, of Hyde Park, was sentenced to 12 months and a day in prison for theft or bribery concerning programs receiving federal funds.
Sullivan and Cogliano Training Centers (SCTC) is a for-profit career training school that offers certificate programs in information technology and other careers. The office of Federal Student Aid within the U.S. Department of Education administers financial aid to eligible students attending educational institutions around the country. Whenever an educational institution, such as SCTC, disburses federal financial aid funds by crediting a student's account, and the total amount of all federal financial aid funds credited exceeds the amount of tuition and fees, room and board, and other authorized charges, the institution must pay the resulting credit balance directly to the student, often in the form of what is known as a federal financial aid refund check.
In July 2010, Bean was employed by SCTC as a financial aid advisor. As part of her responsibilities, Bean also had access to SCTC students' federal financial aid refund checks. On Aug. 15, 2012, a SCTC student contacted SCTC about the status of her federal financial aid refund check. SCTC staff determined that Bean had stolen the student's check, forged the student's endorsement, and deposited the check into a personal bank account. A subsequent investigation revealed that Bean had mishandled and stolen approximately 100 federal financial aid refund checks between June 2011 and August 2012. ATM surveillance images show Bean depositing some of the checks into her personal bank accounts.
In December 2005, Bean was convicted in Suffolk Superior Court on multiple counts of uttering false and forged records and larceny. In that case, Bean stole just under $240,000 worth of federal financial aid refund checks from two local colleges. Bean was sentenced to two years in prison; she served six months of that sentence followed by three years of probation.
United States Attorney Carmen M. Ortiz; Brian Hickey, Special Agent in Charge of the U.S. Department of Education, Office of Inspector General; and Chief Emanuel Gomes of the Brockton Police Department, made the announcement today. The case was prosecuted by Assistant U.S. Attorney Maxim Grinberg of Ortiz's Major Crimes Unit.
Top
Printable view
Last Modified: 10/28/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov